ER-B-99-01



              AUDIT               DECONTAMINATION AND
             REPORT              DECOMMISSIONING AT THE
                               EAST TENNESSEE TECHNOLOGY
                                          PARK




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL          DECEMBER 1998
   OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585

                                               December 21, 1998

MEMORANDUM FOR THE MANAGER, OAK RIDGE OPERATIONS OFFICE

FROM:         Terry L. Brendlinger, Manager
              Eastern Regional Audit Office
              Office of Inspector General

SUBJECT:      INFORMATION: Audit Report on “Decontamination and Decommissioning at the East
              Tennessee Technology Park”

BACKGROUND

The East Tennessee Technology Park (ETTP) contains about 400 buildings with approximately
14.4 million square feet of space. Almost 90 percent of the space is comprised of buildings that are
currently undergoing or are planned for decontamination and decommissioning (D&D). Departmental
policy requires that D&D projects be prioritized based on employee and public health and safety,
protection of the environment, compliance with environmental laws and regulations, cost-effectiveness,
and future site plans. The objective of this audit was to determine whether the Oak Ridge Operations
Office (Operations Office) reduced health, safety, and environmental risks through D&D projects at the
ETTP.

RESULTS OF AUDIT

The Operations Office reduced health, safety, and environmental risks through D&D projects at the
ETTP. However, the major ongoing D&D project at the ETTP did not involve the facility which posed
the greatest risks from exposure to radioactive waste, hazardous or toxic materials, and structural
collapse. This condition occurred because the Operations Office did not fully emphasize reductions of
health, safety and environmental risks when it selected and performed D&D projects at the ETTP. As a
result, a high-risk facility continues to deteriorate, and hazards to workers and the environment are
increased. Also, the Department could incur $34.5 million in unnecessary surveillance and maintenance
costs between FYs 1998 and 2002 for a building which poses significant risks to workers and the
environment. We recommended that the Operations Office require that D&D projects be selected and
performed with greater emphasis on reducing health, safety, and environmental risks for workers and the
public.

MANAGEMENT REACTION

Management did not concur with the finding, recommendation, or estimated monetary impact in the
report. Management stated that the decision to decontaminate and decommission Buildings K-29, K-31,
and K-33 before Building K-25 was an appropriate approach to risk reduction due to the complexity and
hazardous nature of process equipment dismantlement and the associated risks posed to demolition
workers.
                                                  -2-


We determined that the overall health and safety risks to ETTP workers would be reduced if
Building K-25 was decontaminated and decommissioned before Buildings K-29, K-31, and K-33.
Management’s response centers on the possible risk to demolition workers; however, it does not
give adequate consideration to the daily health and safety risks experienced by workers who enter
the K-25 vaults to perform surveillance and maintenance activities.
Decontamination and Decommissioning at the East
Tennessee Technology Park


TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective .........................................................1

                  Conclusions and Observations..................................................2


                  Decontamination and Decommissioning

                  Details of Finding ......................................................................3

                  Recommendation and Comments .............................................5


                  Appendix

                  Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   The ETTP, formerly known as the K-25 Site, occupies about
OBJECTIVE          4,700 acres, or 14 percent of the Oak Ridge Reservation. ETTP was
                   established in 1942 to produce enriched uranium. Since the production
                   mission ended in 1987, ETTP has focused on environmental
                   management activities. These activities include maintaining facilities
                   pending decisions about their disposition, characterizing and managing
                   hazardous materials and conditions, and preparing for and performing
                   D&D. The ETTP contains about 400 buildings totaling approximately
                   14.4 million square feet of space. Almost 90 percent (12.5 million
                   square feet) consists of buildings that are currently undergoing or are
                   planned for D&D.

                   The Operations Office is responsible for identifying contaminated
                   facilities at the ETTP, documenting the potential for reuse and recovery
                   of materials and equipment, and developing schedules for
                   decommissioning facilities. Departmental policy requires that D&D
                   projects be prioritized based on worker and public health and safety,
                   protection of the environment, compliance with environmental laws and
                   regulations, cost-effectiveness, and future site plans.

                   The Department's Office of Environment, Safety and Health performed
                   an oversight review of the safety management of disposition efforts at
                   the ETTP and issued a report in September 1997 entitled Special
                   Review: Safety Management Evaluation of Facility Disposition
                   Programs at the East Tennessee Technology Park. The review team
                   concluded that the Operations Office had made limited progress in
                   decommissioning contaminated buildings scheduled for demolition. One
                   of the contaminated buildings was the subject of the Operations Office's
                   For-Cause Review of Worker Respiratory Illnesses Associated with
                   Working in the K-25 Vaults at the East Tennessee Technology Park,
                   issued in June 1998. The review concluded that mold, fungi, and
                   bacteria growing in the vaults resulted in some workers' respiratory
                   illnesses.

                   In October 1997, the Office of Inspector General reported adverse
                   conditions in the D&D program at the Department's Savannah River
                   Site. Report ER-B-98-01, Audit of the Deactivation, Decontamination,
                   and Disposal of Surplus Facilities at the Savannah River Site,
                   concluded that Westinghouse Savannah River Company did not
                   completely deactivate or decontaminate any of the 162 facilities
                   identified as surplus in FY 1996.




Page 1                                        Decontamination and Decommissioning
                                              at the East Tennessee Technology Park
                  The objective of this audit was to determine whether the Operations
                  Office reduced health, safety, and environmental risks through D&D
                  projects at the ETTP.

                  The Operations Office reduced health, safety, and environmental risks
CONCLUSIONS AND
                  through D&D projects at the ETTP. However, the major ongoing D&D
OBSERVATIONS
                  project at the ETTP did not involve the facility which posed the greatest
                  risks from exposure to radioactive waste, hazardous or toxic materials,
                  and structural collapse. This condition occurred because the Operations
                  Office did not fully emphasize reductions of health, safety, and
                  environmental risks when it selected and performed D&D projects at the
                  ETTP. As a result, a high-risk facility continues to deteriorate, and
                  hazards to workers and the environment are increased. Also, the
                  Department could incur $34.5 million in unnecessary surveillance and
                  maintenance costs between FYs 1998 and 2002 for a building which
                  poses significant risks to workers and the environment.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.



                                                            /S/
                                                     Office of Inspector General




Page 2                                        Decontamination and Decommissioning
                                              at the East Tennessee Technology Park
DECONTAMINATION AND DECOMMISSIONING


Decontamination and          The major ongoing D&D project at the ETTP did not involve the facility
Decommissioning Had          which posed the greatest risks from exposure to radioactive waste,
Not Begun for Building       hazardous or toxic materials, and structural collapse. The Operations
K-25                         Office awarded a $238 million contract for the D&D of three enriched
                             uranium process buildings (K-29, K-31, and K-33) in August 1997.
                             However, the health, safety, and environmental risks associated with
                             Buildings K-29, K-31, and K-33 were not as significant as the risks
                             associated with Building K-25.

                             Building K-25 is the oldest process building and has been shutdown
                             23 years longer than the other process buildings. The roof of Building
                             K-25 has leaked, and the water has accumulated on the operating floor,
                             causing floor panels to collapse. Additionally, water has leaked into
                             vaults used to store packaged Resource Conservation and Recovery Act
                             waste, low-level waste, and waste awaiting disposal in the Toxic
                             Substances Control Act incinerator. ETTP personnel were required to
                             enter the vaults on a daily basis to perform surveillance and maintenance
                             activities. As of August 1998, the roof leaks were not repaired and the
                             wastes were not removed from the building. According to a for-cause
                             review performed by the Operations Office, the accumulation of
                             moisture and the lack of ventilation were ideal conditions for the growth
                             of mold, fungi, and bacteria. Further, a series of employee concerns and
                             issues related to working in or near the vaults were raised as far back as
                             1992.

                             Departmental Order 5820.2A establishes policies and guidelines for the
The Operations Office Is
                             management, decontamination, and decommissioning of radioactively
Required to Manage
                             contaminated facilities under Departmental ownership or control. The
Contaminated Facilities in
                             order requires that Departmental organizations manage radioactively
a Safe and Cost-Effective
                             contaminated facilities in a safe, cost-effective manner to assure that the
Manner
                             release of, and exposure to, radioactivity and other hazardous materials
                             comply with Federal and state standards. Program offices are required
                             to identify contaminated facilities under their jurisdiction, document the
                             potential for reuse and recovery of materials and equipment, and
                             develop schedules for decommissioning the facilities. Departmental
                             policy requires that D&D projects be prioritized based on worker and
                             public health and safety, protection of the environment, compliance with
                             environmental laws and regulations, cost-effectiveness, and future site
                             plans.




Page 3                                                                              Details of Finding
                             The Policy on Decommissioning of Department of Energy Facilities
                             Under the Comprehensive Environmental Response, Compensation,
                             and Liability Act (CERCLA) issued May 1995, establishes the
                             approach agreed upon by the Department and the Environmental
                             Protection Agency for the conduct of decommissioning projects
                             consistent with CERCLA requirements. The policy’s objective is to
                             reduce risk without unnecessary delay and is based on the goal of
                             earlier guidance “to develop decisions that appropriately address the
                             reduction of risk to human health and the environment as
                                                               1
                             expeditiously as the law allows.”

                             The Operations Office did not fully emphasize reductions of health,
Operations Office Did Not
                             safety, and environmental risks when it selected and performed D&D
Fully Emphasize Health and
                             projects at the ETTP. Despite Building K-25’s deteriorating
Safety Risk Reduction
                             condition, it was not scheduled to begin D&D until FY 2003. The
                             Operations Office stated that it started the D&D of Buildings K-29,
                             K-31, and K-33 because it received a proposal to complete the
                             buildings for $550 million less than previously estimated.
                             Management stated that since other factors, such as long-term
                             surveillance and maintenance cost, risk to workers and the
                             environment, and the critical path for ETTP closure, were relatively
                             equal between the two projects, it decided to undertake Buildings
                             K-29, K-31, and K-33 first to take advantage of the large cost
                             savings.

                             We determined that the large cost savings cited by the Operations
                             Office was primarily related to the contracting method used rather
                             than the specific project selected. In December 1995, the
                             management and operating contractor (M&O) at the ETTP estimated
                             it would cost $817 million to decontaminate Buildings K-29, K-31,
                             and K-33 using M&O labor and overhead. Then, in November 1996,
                             the Operations Office solicited proposals for the decontamination of
                             the buildings from contractors other than the M&O. The Operations
                             Office received proposals and awarded a contract in August 1997 for
                             a fixed price of $238 million. The price was substantially less than
                             previously proposed by the M&O because (1) the Operations Office
                             awarded a fixed-price contract to a private contractor using


                             ______________________________
                             1
                               Guidance on Accelerating CERCLA Environmental Restoration at Federal
                             Facilities, established by the Environmental Protection Agency, Department of
                             Energy, and Department of Defense; August 22, 1994.



Page 4                                                                                Details of Finding
                            competitive procedures rather than negotiating a cost-reimbursable task
                            order with the M&O; (2) the Department agreed to transfer ownership
                            of the decontaminated metals removed from the buildings to the new
                            contractor rather than require the M&O to dispose of the metals after
                            they were decontaminated; and (3) the contractor's overhead and fees
                            were lower than those proposed by the M&O. If the same contracting
                            method was used to decontaminate Building K-25, we estimate that a
                            similar cost savings could be realized.

Unnecessary Costs Are       In addition to the health and safety risks, the Department could incur
Incurred for Surveillance   $34.5 million in unnecessary surveillance and maintenance costs for
and Maintenance             Building K-25 before it is demolished in FY 2003. As a result of its size
                            and rapidly deteriorating condition, Building K-25 accounted for more
                            than one-third of the surveillance and maintenance costs incurred at the
                            ETTP in FY 1997. It will cost the Department about $51.3 million to
                            maintain Building K-25 in its current condition until it can be demolished
                            in FY 2003. However, it would have cost the Department only
                            $16.8 million to maintain Buildings K-29, K-31, and K-33 in their
                            current condition until FY 2003. Therefore, the Department could avoid
                            $34.5 million in surveillance and maintenance costs by demolishing
                            Buildings K-25 before decontaminating and decommissioning Buildings
                            K-29, K-31, and K-33.


RECOMMENDATION              We recommend that the Manager, Oak Ridge Operations Office require
                            that D&D projects be selected and performed with greater emphasis on
                            reducing health, safety, and environmental risks for workers and the
                            public.

MANAGEMENT REACTION         Management did not concur with the finding, recommendation, or
                            estimated monetary impact. Management stated that the decision to
                            decontaminate and decommission Buildings K-29, K-31, and K-33
                            before Building K-25 was an appropriate approach to risk reduction due
                            to the complexity and hazardous nature of process equipment
                            dismantlement and the associated risks posed to demolition workers.
                            Management stated that Buildings K-29, K-31, and K-33 were
                            configured in such a way that supports dismantlement. Problems
                            associated with uranium deposits are more easily handled considering
                            both the low assay of the deposits and the maintenance support
                            infrastructure designed into these buildings. Management stated that the
                            conditions are considerably different in Building K-25, which was
                            configured with multiple confined spaces that present a considerable


Page 5                                                          Recommendation and Comments
                    hazard to dismantlement workers. Also, management stated that
                    Building K-25 contains multiple bulky deposits of uranium in assays
                    over 20 percent.

                    Management stated that there is no release of radioactive
                    contamination or hazardous or toxic materials, and there is no threat
                    of external structural collapse in Building K-25. It is management’s
                    opinion that Building K-25 can be maintained to contain the
                    contamination and is safe for limited use by personnel with
                    administrative controls, engineered constraints, and personnel
                    protective equipment until major funding is available to begin
                    dismantlement.

                    Management concluded that the decision to proceed with the D&D of
                    Buildings K-29, K-31, and K-33 provides a proving ground for these
                    efforts while maintaining worker safety. The knowledge obtained
                    from that effort will be transferred to support safe dismantlement of
                    Building K-25.

                    Finally, management disagreed with the estimated cost savings of
                    $34.5 million. Management stated that the D&D of Buildings K-29,
                    K-31, and K-33 before Buildings K-25 and K-27 will result in a cost
                    savings of up to $147 million. Management stated that the
                    surveillance and maintenance costs for Buildings K-25 and K-27 are
                    high and will continue to increase; however, the costs to maintain
                    Buildings K-29, K-31, and K-33 would also increase if D&D were
                    deferred. For example, Building K-33 would need a new roof.
                    Further, the delay in decommissioning Buildings K-29, K-31, and K-
                    33 might cause the buildings to be torn down rather than reused,
                    resulting in a substantial cost increase over the current project for
                    reuse.

AUDITORS COMMENTS   We disagree with management’s statement that the decision to
                    decontaminate Buildings K-29, K-31, and K-33 before Building K-25
                    was an appropriate approach to risk reduction. Management’s
                    conclusion centers on the possible risk to demolition workers.
                    However, it does not give adequate consideration to the daily health
                    and safety risks experienced by ETTP workers who are required to
                    enter the K-25 vaults to perform surveillance and maintenance
                    activities.




Page 6                                              Recommendation and Comments
         Management’s estimate of cost savings was not supported. In its
         calculation of the $147 million cost savings, management included
         $33 million for surveillance and maintenance costs for a 7 to 10 year
         period, $30 million for a new roof and other major repairs for Building
         K-33, and $84 million for the demolition of the buildings. However,
         this calculation is flawed for three reasons. First, the cost of
         surveillance and maintenance is much greater for Building K-25 than
         for Buildings K-29, K-31, and K-33. Management stated that, for a
         7 to 10 year period, surveillance and maintenance costs for the three
         buildings would be about $33 million. By comparison, the
         surveillance and maintenance costs for Building K-25 would be
         $101.6 million for a 10 year period. Second, we question
         management’s assertion that Building K-33 needs $30 million in repairs
         since the contractor performing D&D activities on K-33 has not
         been asked to perform repair work. Finally, we disagree with
         management’s methodology whereby both the cost of repairs and the
         cost of demolition are used as a basis for determining cost savings.
         Management estimated that the cost to repair Building K-33 was
         $30 million. Management also estimated the cost of demolishing the
         buildings at $84 million. We do not believe management would spend
         $30 million repairing a building it planned to demolish in the near
         future.




Page 7                                     Recommendation and Comments
Appendix

SCOPE         The audit was performed from August 4, 1997, to June 12, 1998, at the
              Operations Office and the ETTP. The scope of the audit included 123
              facilities in the D&D program at the ETTP. FY 1997 surveillance and
              maintenance costs for the D&D program at the ETTP were about
              $22 million. The Operations Office developed an integrated
              prioritization process which included D&D, waste management, and
              remedial action projects. As of February 1998, there were 260 projects
              ranked in the prioritization.

METHODOLOGY   To accomplish the audit objective we:

                     • Reviewed Federal and Departmental regulations for the
                       D&D process;

                     • Analyzed the costs and risks associated with D&D projects
                       at the ETTP;

                     • Reviewed estimated repair and annual surveillance and
                       maintenance costs for the five uranium process buildings at
                       the ETTP;

                     • Evaluated the effectiveness of the Operations Office’s
                       prioritization system; and

                     • Held discussions with Departmental and contractor personnel
                       regarding D&D activities.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly , we
              assessed significant internal controls related to the D&D of facilities at
              the ETTP. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. We did not conduct a reliability assessment of
              computer-processed data because only a very limited amount of
              computer-processed data was used during this audit.

              We held an exit conference with the Assistant Manager for
              Environmental Restoration on December 9, 1998.




Page 8                                                      Scope and Methodology
                                                                                IG Report No. ER-B-99-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
